OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/WEST
AFRICA’S PROCUREMENT
AND DISTRIBUTION OF
COMMODITIES IN CÔTE
D’IVOIRE FOR THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 7-624-09-002-P
MAY 8, 2009



RIG/DAKAR
Office of Inspector General


May 8, 2009

MEMORANDUM

TO:                 USAID/West Africa Director, Henderson Patrick

FROM:               Regional Inspector General, Abdoulaye Gueye, Acting /s/

SUBJECT:            Audit of USAID/West Africa’s Procurement and Distribution of Commodities in
                    Côte d’Ivoire for the President’s Emergency Plan for AIDS Relief (Report No. 7­
                    624-09-002-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in appendix II.

The report includes nine recommendations intended to improve the implementation of
USAID/West Africa’s Procurement and Distribution of Commodities in Côte d’Ivoire for the
President’s Emergency Plan for AIDS Relief. In your response to the draft audit report, you
indicated corrective action plans addressing two of the nine recommendations, and you have
taken sufficient action to close seven of the nine. Therefore, we consider that management
decisions have been reached on the two recommendations with corrective action plans and we
consider the other seven recommendations closed upon issuance of this report. Final action to
close the two recommendations with management decisions should be coordinated with the
Audit, Performance and Compliance Division (M/CFO/APC) upon completion of the planned
actions.

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 6 


Audit Findings ................................................................................................................. 7 


     Inventory Control System Needs 

     Improvement .............................................................................................................. 8 


     Program Reporting Needs Improvement .................................................................. 11 


Other Issue Noted During the Audit ............................................................................ 15 


     Cost-Recovery System Needs to Be 

     Abolished or Improved .............................................................................................. 15 


Evaluation of Management Comments ....................................................................... 18 


Appendix I—Scope and Methodology......................................................................... 23 


Appendix II—Management Comments........................................................................ 26 


Appendix III—Reported and Documented 

Results ........................................................................................................................... 34

SUMMARY OF RESULTS

In response to the President’s Emergency Plan for AIDS Relief (PEPFAR), USAID
contracted with the Partnership for Supply Chain Management (Partnership) to procure
antiretroviral drugs, laboratory supplies, and other commodities for storage and
distribution by PEPFAR implementers in Côte d’Ivoire (page 3). The Partnership was
also responsible for upgrading Côte d’Ivoire’s Public Health Pharmacy physical
infrastructure, developing a computerized inventory warehouse management system,
providing technical assistance and human resources support and coordination, and
maintaining a 3-month buffer stock in the distribution system (page 8).

The Regional Inspector General/Dakar conducted this audit to determine whether
USAID/West Africa procured, deployed, and warehoused its PEPFAR commodities to
ensure that intended results were achieved and to assess the impact of these efforts (page
6).

Generally, the audit found that USAID/West Africa procured, deployed and warehoused
the commodities supporting PEPFAR in the effort to combat HIV/AIDS (human
immunodeficiency virus/acquired immunodeficiency syndrome), and the mission’s
implementation of PEPFAR has had a positive impact on people living with HIV/AIDS in
Côte d’Ivoire. From 2005 to 2007, the number of patients receiving PEPFAR-supported
antiretroviral drugs more than quadrupled to 46,000. The mission accomplished positive
results in fiscal year (FY) 2007, especially in reaching 46,000 of the 47,500 patients
encompassed in the country operational plan (page 7). However, because of problems
summarized below, shortages of critical supplies and medications at some sites
disrupted the flow of drugs, endangering patients’ health, while at other sites,
medications were at risk of going to waste because they were stored improperly or were
ordered in excess (pages 8 through 11).

Inventory management problems were a primary impediment to achievement of intended
results (page 7). The audit found shortages of much-needed laboratory supplies and
stockouts of some critical antiretroviral drugs because of inadequate inventory planning,
insufficient inventory forecasting, and the lack of a system to track the use of
commodities (pages 9 through 12). Storage conditions also needed improvement, as
boxes were stored in unsecured hallways, sometimes upside down, and exposed to high
humidity and heat (pages 10 and 11). In addition, the number of patients on antiretroviral
drugs was overreported, because implementers and the health facilities could not
measure and report accurately and the implementers did not consistently apply the
Office of the U.S. Global AIDS Coordinator’s definition of an active patient (pages 12
through 16). The overreporting caused orders of drugs in excess, and the surplus drugs
are in danger of expiring (pages 13 and 15).

Another significant matter that came to the auditors’ attention concerned a cost-recovery
system established by the Government of Côte d’Ivoire. This system was designed to
generate revenues to help strengthen Côte d’Ivoire’s program to combat HIV/AIDS.
However, the lack of transparency and accountability regarding proceeds from patients
has left an estimated $1.5 million collected since 2004 still unaccounted for (page 16).

This report includes nine recommendations to help USAID/West Africa achieve the greatest


                                                                                        1
possible results by improving its commodity acquisition, distribution, and warehousing
operations; improving program reporting; and preventing fraud, waste, and abuse (pages
11 through 17).




                                                                                    2
BACKGROUND 

In May 2003, Congress enacted legislation to fight HIV/AIDS (human immunodeficiency
virus/acquired immunodeficiency syndrome) globally through the President’s Emergency
Plan for AIDS Relief (PEPFAR). Although PEPFAR was originally intended to provide
$15 billion over 5 years for the prevention, treatment, and care of individuals with
HIV/AIDS, $18.8 billion had been committed through January 3, 2008, with 58 percent
allocated to programs in 15 focus countries.1 On July 30, 2008, President George W.
Bush signed into law the Tom Lantos and Henry J. Hyde United States Global
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008.
This legislation responds to the President’s call to expand the U.S. Government’s
commitment to this successful program for an additional 5 years, from 2009 through
2013. The legislation increased the U.S. financial commitment by $48 billion, of which
$39 billion is set aside for PEPFAR bilateral HIV/AIDS programs.

In September 2005, USAID contracted with the Partnership for Supply Chain
Management (the Partnership2) to procure commodities for the care and treatment of
persons with HIV/AIDS and related infections and to provide related technical
assistance. This USAID/Washington-managed contract has a ceiling price of $7 billion.
USAID/Washington’s contracting officer issues task orders against the contract as needs
become defined. The first task orders called for up to $652 million over 3 years to
procure and distribute antiretroviral drugs and other commodities and to provide
technical assistance for supply chains. Missions access the task orders by allocating
mission funding to the contract. The task orders had estimated completion dates of
September 29, 2008.

The Partnership’s objective is to establish and operate a safe, secure, reliable, and
sustainable supply chain to procure and distribute pharmaceuticals and other
commodities needed to provide such treatment.

Côte d’Ivoire, one of the 15 PEPFAR focus countries, has a population of 18 million
people of whom nearly 600,000 (about 3 percent) are thought to be infected with
HIV/AIDS. Around 47,000 people succumb to the disease each year. According to the
PEPFAR 2008 Annual Report to Congress, 46,000 people in Côte d’Ivoire received
antiretroviral drugs in fiscal year (FY) 2007, and PEPFAR had an ambitious goal of
reaching 77,000 people in FY 2008.

In Côte d’Ivoire, USAID contributed funding and technical assistance to PEPFAR
through an array of Washington-managed implementation agreements and “buy-ins” for
field activities. Though there is no USAID bilateral mission in Côte d’Ivoire, USAID
conducted local management and technical oversight of activities through an in-country
USAID adviser who served on the U.S. Government PEPFAR integrated management

1
  Botswana, Cote d’Ivoire, Ethiopia, Guyana, Haiti, Kenya, Mozambique, Namibia, Nigeria, 

Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia. 

2
  The Partnership for Supply Chain Management is a nonprofit organization established by John

Snow, Inc., Research & Training Institute, and Management Sciences for Health. The 

Partnership includes nonprofit and faith-based organizations, commercial private sector

corporations, and academic institutions. 




                                                                                          3
team. USAID/West Africa (a USAID regional mission based in Accra, Ghana) provided
technical and program management support through ongoing virtual consultation and
short-term field visits. The day-to-day operation was directed by the PEPFAR in-country
coordinator3 and the Centers for Disease Control and Prevention (CDC).

Procurement, warehousing, and distribution of PEPFAR commodities in Côte d’Ivoire
were carried out by the Partnership, as the primary procurement agent for PEPFAR-
funded commodities and the principal provider of technical assistance for the commodity
supply chain, especially for forecasting and management, in collaboration with the
Ministry of Health through the Public Health Pharmacy.

The Public Health Pharmacy was the only entity in Côte d’Ivoire licensed to import
medication, and it served as the central point for ordering and warehousing all
HIV/AIDS−related and other consumable health supplies in Côte d’Ivoire. Antiretroviral
drugs and other commodities procured by PEPFAR and other funding sources (such as
the Global Fund4) pass through the Public Health Pharmacy warehouse before being
dispatched to antiretroviral service outlets.5 However, activities related to direct
intervention and interaction with patients and end users, such as dispensing
antiretroviral drugs and collecting data, are implemented by two local nongovernmental
organizations (NGOs) referred to hereafter as the implementers—the Elizabeth Glaser
Pediatric AIDS Foundation (EGPAF) and Alliance Nationale Contre le SIDA en Côte
d’Ivoire (ACONDA)—under agreement with the CDC.6

In spite of Côte d’Ivoire’s sociopolitical crises and the weaknesses in its health care
system, PEPFAR activities have rapidly scaled up care and treatment across the
country, from 16 antiretroviral service outlets in FY 2004 to 92 sites by the end of
calendar year 2007. As of September 30, 2007, an estimated 46,000 people were
receiving antiretroviral medications. Funding for PEPFAR in Côte d’Ivoire has grown
from $46 million in FY 2006 to $84 million in FY 2007. According to the country
operational plan for FY 2008, PEPFAR in Côte d’Ivoire was allocated $120 million, of
which CDC managed $67.6 million, USAID managed $52.1 million, and other U.S.
agencies managed the remainder.

As mentioned above, several stakeholders are involved in procuring, distributing, and
warehousing antiretroviral commodities, collecting data on PEPFAR procurement
activities in Côte d’Ivoire, and managing and reporting on results. The stakeholders’
primary responsibilities are as follows:

3
  Under the Chief of Mission, the PEPFAR in-country coordinator serves as an operational

coordinator for PEPFAR activities in Côte d’Ivoire. The PEPFAR in-country coordinator also 

serves as the primary liaison for the Côte d’Ivoire in-country team with the USAID Office of Global

Health. 

4
  The Global Fund was created to finance a dramatic turnaround in the fight against HIV/AIDS,

malaria, and tuberculosis. Several nations, including the United States, contribute to the Global 

Fund. 

5
  Antiretroviral service outlets are the lowest level of unit, such as a hospital, clinic, or mobile unit, 

where therapeutic activities including the provision of antiretroviral drugs and clinical monitoring

are provided to those with the HIV infection. Antiretroviral service outlets are also known as

antiretroviral therapy (ART) sites. 

6
  ACONDA and EGPAF are the only implementing entities providing technical assistance to the 

health facilities and the district pharmacies. They are responsible for the collection of patient data.

ACONDA and EGPAF agreements are with CDC, not USAID. 



                                                                                                        4
•	 The PEPFAR in-country team is made up of a CDC director, a CDC deputy director
   and senior management branch chiefs, and USAID/West Africa technical advisers.
   The PEPFAR in-country team coordinates and plans program activities and makes
   high-level interagency decisions. USAID does not have a bilateral mission in Côte
   d’Ivoire, but program activities receive critical support through USAID/West Africa.

•	 USAID/West Africa provides technical assistance to the PEPFAR in-country team
   and serves as a budget pass-through for funds allocated to PEPFAR implementing
   mechanisms. However, according to mission officials, the mission never received or
   allocated funding for the Partnership for Supply Chain Management.

•	 The Partnership is the primary procurement agent of PEPFAR-funded commodities.
   It is also responsible for forecasting, securing, and monitoring the flow of drug
   commodities and providing technical assistance to the Public Health Pharmacy.

•	 CDC provides technical support for collecting, managing, analyzing, and
   disseminating strategic information. It is a critical partner in the development of the
   unified national vision for monitoring and evaluation, information technologies and
   information management systems, and HIV surveillance in Côte d’Ivoire. Because
   USAID does not have a presence in Côte d’Ivoire, CDC-funded management,
   administration and motor pool staff supports the U.S Government (CDC-USAID)
   integrated project management team and technical assistance sections, as well as
   the laboratory and strategic information functions for PEPFAR.

•	 After previously working as a treatment implementer for EGPAF, ACONDA has been
   an independent PEPFAR NGO with a CDC grant since September 2007. ACONDA
   provides innovative, comprehensive, family-based care services in support of the
   Ministry of Health’s programs for the prevention of mother-to-child transmission
   (PMTCT) and HIV treatment. ACONDA encourages HIV-positive individuals to
   undergo clinical and biological assessments to determine eligibility for antiretroviral
   therapy (ART) initiation, while supporting antiretroviral service outlets and tracking
   patients enrolled in ART.

•	 EGPAF has been a U.S. Government implementer for HIV/AIDS relief in Côte
   d’Ivoire since 2005, applying a holistic approach to HIV prevention, care, and
   treatment. EGPAF also works with the Partnership and the Public Health Pharmacy
   to support antiretroviral drug quantification and delivery of drugs to antiretroviral
   service outlets supported by PEPFAR. EGPAF also tracks patients enrolled in
   antiretroviral therapy.

•	 The Office of the U.S. Global AIDS Coordinator (OGAC) leads the implementation of
   PEPFAR around the world. It authorizes the Partnership to procure antiretroviral
   drugs and issues guidance and receives periodic progress reports on PEPFAR
   activities.

•	 The PEPFAR in-country coordinator is the primary contact with OGAC and the U.S.
   Embassy front office, as well as the spokesperson for the overall program in Côte
   d’Ivoire.




                                                                                        5
AUDIT OBJECTIVE
This audit was conducted as part of a worldwide audit of USAID’s procurement and
distribution of PEPFAR commodities. The Regional Inspector General/Dakar conducted
this audit in Côte d’Ivoire to answer the following audit objective:

•	 Has USAID/West Africa procured, deployed, and warehoused its PEPFAR
   commodities in Côte d’Ivoire to help ensure that intended results were achieved, and
   what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     6
AUDIT FINDINGS 

In general, USAID/West Africa procured, deployed, and warehoused the commodities
supporting the President’s Emergency Plan for AIDS Relief (PEPFAR). However, we
noted significant problems with the inventory management system that hindered the
achievement of intended results. As discussed below, several of the 15 antiretroviral
service outlets visited did not have laboratory supplies and were short of some
antiretroviral drugs. Storage conditions at the Public Health Pharmacy, the two district
pharmacies visited, and several antiretroviral service outlets were inadequate and did
not meet storage condition standards. While the results achieved were encouraging, the
mission did not reach its intended results. In spite of these challenges, USAID’s efforts
had a positive impact on the number of individuals receiving antiretroviral therapy (ART)
as described in the following paragraphs.

Procurement. USAID/West Africa procured more than 90 percent of the planned
antiretroviral drug purchases targeted in the 2007 country operational plan. The mission
procured $15.9 million of the planned $17.5 million purchases. As mentioned in the
finding beginning on page 8, USAID/West Africa procured antiretroviral drugs and some
laboratory supplies, but because of inadequacies in the inventory management system it
did not procure sufficient quantities for the program in Côte d’Ivoire during fiscal year
(FY) 2007.

Deployment. Commodities were deployed first to the central warehouse in Accra,
Ghana, then to the Public Health Pharmacy in Abidjan, Côte d’Ivoire, and lastly to
districts warehouses, hospitals, and health facilities. Although commodities were
deployed at all 15 health facilities visited, and these facilities had adequate supplies of
test kits, 4 of the 15 health facilities experienced shortages of antiretroviral drugs, and 9
of the 15 reported shortages of laboratory supplies during FY 2007.

Warehousing. The PEPFAR commodities stored at the central warehouse in Accra
were properly warehoused. However, the Public Health Pharmacy, the two district
warehouses, and 6 of 15 health facilities in Côte d’Ivoire did not meet the storage
condition standards tested, as discussed in the finding beginning on page 8.

Impact. USAID’s efforts in procuring, deploying, and warehousing its commodities have
had a substantial positive impact on the number of individuals receiving antiretroviral
therapy. As information in PEPFAR annual reports shows, the number of individuals
undergoing antiretroviral therapy increased from 11,097 in September 2005 to 20,923 in
September 2006 and to 46,000 in September 2007. However, the September 2007
number was slightly below the September 2007 target of 47,500 individuals receiving
antiretroviral therapy. Additionally, the reported September 2007 figure was not
supported—see discuss ion in the finding starting on page 11.

Also, the audit found a lack of coordination between the Partnership and the Public
Health Pharmacy as well as inaccurate and unsupported reported information. The
following sections discuss the reasons for the inventory control system weakness and
identify opportunities to improve program reporting and make the program more
sustainable.




                                                                                           7
Inventory Control System Needs
Improvement

Summary: According to the country operational plan and the memorandum of
understanding between the Partnership for Supply Chain Management and the Ministry
of Health, the Partnership was responsible for providing technical assistance, human
resources support, and coordination with the Public Health Pharmacy, as well as for
procuring HIV/AIDS commodities and improving the inventory and distribution system.
However, the audit found a weak inventory control system and a lack of coordination
between the Partnership and the Public Health Pharmacy. Several factors weakened
inventory control system, including the Partnership’s inability to establish a logistical
management system to ensure adequate distribution of supplies. Insufficient funding and
the lack of training and experience in inventory management contributed to the system’s
weakness and resulted in critical drug shortages, which disrupted patients’ drug
regimens and endangered their lives.


According to the country operational plan the Partnership for Supply Chain Management
(Partnership) was to procure most drugs, laboratory supplies, and other commodities for
the President’s Emergency Plan for AIDS Relief (PEPFAR) implementers. A critical
component of the Partnership’s support was to strengthen the Ministry of Health’s Public
Health Pharmacy inventory management unit, where the supplies were stored and
distributed to antiretroviral service outlets. The Partnership was expected to do the
following:

•	 Procure and store HIV/AIDS commodities7 at the Public Health Pharmacy and
   maintain a 3-month buffer stock to avoid stockouts at PEPFAR antiretroviral delivery
   sites.

•	 Generate regular, accurate inventory reports using improved management tools to
   ensure that all sites were quickly equipped and trained, received support in using the
   inventory management tools, and produced regular reports.

•	 Upgrade the physical infrastructure of the Public Health Pharmacy in Abidjan and
   district warehouses.

•	 Develop a computerized warehouse inventory management system at the Public
   Health Pharmacy.

•	 Set up a system for tracking HIV/AIDS commodities through the Public Health
   Pharmacy to antiretroviral service outlets.

According to the memorandum of understanding between the Partnership and the
Ministry of Health, the Partnership was responsible for coordinating with and providing
technical assistance and human resources support to the Public Health Pharmacy.
The audit found a weak inventory control system that lacked coordination between the

7
  Throughout this report “commodities” refers to HIV/AIDS supplies such as antiretroviral drugs,
laboratory supplies, test kits, or reagents.


                                                                                              8
Partnership and the Public Health Pharmacy. Other weaknesses in the system included
inadequate inventory planning, insufficient inventory forecasting, and the lack of a
system to track commodities usage and management.

As of April 2008, the Partnership had not completed the infrastructure upgrade of the
annex warehouse or provided a warehouse management system to improve the
efficiency of the inventory distribution system and the safety and security of PEFPAR
commodities. The new warehouse was still under construction, and the equipment to
store the inventory had not yet arrived.

Also, HIV/AIDS commodities at the Public Health Pharmacy were not properly stored,
the warehouse had no inventory management system in place, and none of the
antiretroviral drug test counts reconciled with the Public Health Pharmacy’s warehouse
stock cards. The audit test count did not reconcile with the Public Health Pharmacy’s
inventory listing completed during a physical inventory at the end of December 2007,
even though the inventory had been completed just 3 months before the audit test count.

Furthermore, the Partnership did not have accurate data on actual usage patterns of
antiretrovirals to provide ongoing analyses on consumption compared with patient
treatment data. Without the usage data, accurately quantified drug usage reports could
not be produced. Most analyses at the Public Health Pharmacy were performed
manually or with Excel spreadsheets.

As a further indication of the inventory control system’s weaknesses, antiretroviral drugs8
were stored at only 15 of the 23 health facilities visited, and the inventory control
systems at 7 of 15 sites were not producing accurate results. In fact, only 6 of the 15
visited facilities had the 3-month reserve of supplies required by the government norm.
At a large voluntary counseling and testing outlet in Abidjan, patients could obtain only a
1-month supply of antiretroviral drugs because the clinic was concerned about running
out. This restriction caused particular difficulty for patients who lived far from the facility.

Several clinics had supplies sufficient to last only 1 month; several others, including the
district warehouses, had stockouts of one or two types of antiretroviral drugs. For
instance, the district warehouse in Agnibilékrou had stockouts of nevirapine 200 mg and
of the drug combination stavudine/lamivudine/nevirapine.           Likewise, the district
warehouse in Abengourou had a stockout of nevirapine and zidovudine, even though the
Public Health Pharmacy warehouse in Abidjan had sufficient supplies of these drugs.

Almost all sites visited reported difficulty obtaining much-needed laboratory supplies
from their district pharmacy or the Public Health Pharmacy, because the PEPFAR
program in Côte d’Ivoire did not purchase sufficient quantities. During site visits, nine
health facilities had a shortage of some or all of the following supplies: gloves, cotton,
needles, bleach, and absolute CD4 count9 reagent.

8
  Antiretroviral drugs decrease the human immunodeficiency virus’s ability to replicate and
deplete CD4 cells, which help the body’s immune system fight off opportunistic infections like
pneumonia and tuberculosis.
9
  The absolute CD4 count is a measurement of the number of functional CD4 T-cells circulating in
the blood. It is measured by a simple blood test and is reported as the number of CD4 cells per
cubic millimeter of blood. HIV-infected people have counts that are typically lower than 500, and
people with AIDS can have counts of 200 or lower.


                                                                                               9
Moreover, storage facilities were inadequate at the Public Health Pharmacy warehouse,
two district warehouses, and several health facilities. At the Public Health Pharmacy
warehouse, where all PEPFAR and Global Fund commodities were stored, boxes were
stacked in unsecured hallways and rooms and some boxes were stacked upside down.
The Public Health Pharmacy did not have air conditioners to maintain recommended
storage temperatures; in fact, the thermometer read 32 °C (89.6 °F) at the Public
Pharmacy central warehouse during the three visits we conducted, exceeding the
recommended temperature threshold of 25 °C (77 °F).

Similarly, several health facility warehouses had no air conditioners and no inventory
control mechanisms to report discrepancies between the supplies ordered and supplies
received; additionally, boxes were stacked upside down and there were no stock cards
to maintain a perpetual inventory system. One warehouse had water damage and
another was infested with rodents, resulting in a loss of inventory.

Lastly, the distribution system was weak and needed improvement. For example,
pharmacies in two large centers in Abidjan were so small that they could hardly
accommodate their patient loads. In the region of Abengourou, antiretroviral drugs were
available only at the district warehouse/pharmacy, where no testing or doctors were
available; like some health facilities, the district warehouse in Abengourou did not have a
vehicle to distribute the antiretroviral drugs to the peripheral sites. Some health facilities
depended on the public transportation system to get their supplies, as they had no other
means of obtaining them.

Several factors weakened the inventory control system. One was the Partnership’s
inability to establish a logistical management system to ensure adequate distribution of
supplies, because of several unforeseen changes in the inventory management system
design envisioned by the Government of Côte d’Ivoire. Also, the Partnership did not
have the in-country management capacity to administer its agreement efficiently. There
was no permanent U.S. staff to provide the necessary oversight and guidance; until
recently, Partnership activities were managed by five local staff and the Partnership
consultants. Although the project staff was technically competent—several were
pharmacists and medical doctors—they lacked the inventory management experience
and training needed to manage such a huge inventory operation. Inadequate staffing in
the health facilities was also a contributing factor, as most health facility pharmacies
visited were staffed with only one person to fill prescriptions for many patients.

Another factor was the lack of funding. Funding had been planned for an upgrade of the
warehouses’ physical infrastructure, including the infrastructure upgrade of the annex
warehouse in Abidjan, and the upgrade would have improved the ability to manage the
inventory. However, after a revised quantification exercise in July 2007 the funds were
shifted to purchase additional antiretroviral drugs. The Global Fund, another contributor
to Côte d’Ivoire’s national HIV/AIDS program, experienced recurring difficulties and was
unable to deliver commodities to the national program, leaving PEPFAR as the primary
funding source for antiretroviral procurement.

The inventory management system’s inability to track antiretroviral consumption closely
and adjust projections according to consumption patterns led to the ordering of more
than $1.5 million of excess antiretroviral drugs, which will expire soon. The amount of
antiretroviral drugs that should have been ordered could not be determined accurately,
resulting in shortages of some drugs that are critical to patients’ drug regimens. Also,


                                                                                           10
improper storage conditions and prolonged exposure to heat reduced the effectiveness
and shortened the shelf life of commodities, making them unusable. These factors
caused interruptions in the drug supply chain and, without effective drugs, patients’ lives
were endangered.

To strengthen the inventory management system, minimize commodity wastage, and
prevent further stockouts, this audit makes the following recommendations.

   Recommendation 1: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management, in conjunction with the Public Health
   Pharmacy, to develop an action plan to implement an adequate inventory
   management system.

   Recommendation 2: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management to develop an action plan with a
   timetable to train the local staff of the Partnership for Supply Chain Management
   and the staffs of the Public Health Pharmacy and the district pharmacies in
   managing inventory and developing systems to track and report usage of
   commodities.

   Recommendation 3: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management, in conjunction with the Public Health
   Pharmacy, to resume work on the annex warehouse and set an operational
   timeframe and completion date for the new warehouse.

   Recommendation 4: We recommend that USAID/West Africa, in conjunction
   with the Partnership for Supply Chain Management and the Public Health
   Pharmacy, develop an action plan to implement measures to improve storage
   conditions for the President’s Emergency Plan for AIDS Relief commodities.

Program Reporting Needs Improvement

 Summary:        USAID and PEPFAR place a great deal of importance on the
 completeness, accuracy, and consistency of reported information, not least because
 the quantities of supplies and drugs ordered and stocked are determined by this data.
 However, the reporting on PEPFAR’s HIV/AIDS treatment component was inaccurate
 and unsupported. Several results reported by the program’s two implementers,
 including the number of individuals under antiretroviral treatment, were overstated so
 that more drugs were ordered than were needed. Moreover, the implementers did not
 have common criteria to define an “active patient.” Information on the number of
 antiretroviral service outlets was inconsistent and overreported. The problems came
 about because the implementers and the health facilities could not measure or report
 accurately the number of active patients, and the implementers failed to consistently
 apply the Office of the U.S. Global AIDS Coordinator’s (OGAC) definition of an active
 patient. Consequently, program managers could not reliably ascertain the number of
 individuals under treatment.

USAID provides its operating units with extensive guidance to help them manage for
improved results.   This guidance includes Automated Directives System (ADS)



                                                                                        11
203.3.5.2, which states that the operating unit and strategic objective teams should be
aware of the strengths and weaknesses of their data and the extent to which the data’s
integrity can be trusted to influence management decisions. According to ADS 203.3.5.1
and USAID TIPS 12 (supplemental guidance referenced by the ADS), Analyzing
Performance Data, performance data should be accurate and reliable, and missions
should take steps to provide adequate documentation to support submitted data.
Furthermore, TIPS 12 states that even valid indicators have little value if the collected
data do not correctly measure the variables or characteristics encompassed by the
indicators.

According to guidance from the Office of the U.S. Global AIDS Coordinator (OGAC), an
active patient is one who had a supply of antiretroviral drugs at the end of the reporting
period. The guidance recognizes that patients collect antiretroviral drugs on varying
schedules and that monitoring systems are not always adequate to generate an exact
count of active patients on the last day of the reporting period. Accordingly, the
guidance puts forward a proxy method for calculating the number of active patients: the
number of individuals who were seen for antiretroviral therapy during the last 3 months
of the reporting period, minus those who were known to have died, stopped treatment, or
transferred out or who were otherwise lost since the last time they were seen for a
treatment appointment. The guidance also states that an antiretroviral service outlet
providing antiretroviral therapy is a site that provides antiretroviral drugs and clinical
monitoring. This could be the lowest level for which data exists, such as a hospital,
clinic, or mobile unit.

Information reported to the Centers for Disease Control (CDC) by the program’s two
implementers, Alliance Nationale Contre le SIDA en Côte d’Ivoire (ACONDA) and the
Elizabeth Glaser Pediatric AIDS Foundation (EGPAF), on the number of active patients
using antiretroviral drugs was inconsistent and inaccurate. Also, reported information on
the number of antiretroviral service outlets was inconsistent and did not conform to
PEPFAR’s definition.

The audit team found significant discrepancies between the reported data and the
supporting documentation with regard to the number of individuals receiving
antiretroviral drugs at the end of the reporting period. The number of individuals
receiving antiretroviral therapy was significantly overstated, as shown in table 1 below
(see appendix III for detailed site information).

Table 1. Results Reported by Implementers to PEPFAR in Côte d’Ivoire Versus
Documented Results (see detail in appendix III)

    Sites Visited in
    Quarter Ending       Results     Results      Number       Percentage
    September 30, 2007   Reported    Documented Overreported Overreported
    ACONDA                     5,497        3,570        1,927          54%
    EGPAF                      9,979        6,632        3,347          50%
    Total                    15,476        10,202        5,274          52%

Several examples of inaccurate or unsupported results follow.

•     At one visited site, the number of individuals on antiretroviral therapy was



                                                                                       12
   overreported by 44 percent. The number reported was 3,044 patients, but onsite
   documentation found that only 2,114 patients were receiving antiretroviral therapy at
   the end of September 2007.

•	 In the region of Abengourou, where health facilities did not have antiretroviral
   medication, prescribing physicians’ records did not support the reported information.
   As mentioned on page 11, health facilities in Abengourou did not dispense
   antiretroviral drugs. Several health facility prescribing physicians stated that patients
   prefer not to visit the health facilities and instead choose to go directly to the district
   pharmacy to get their supplies, thereby avoiding two separate visits and the cost of a
   medical consultation. These prescribing physicians said that they did not have
   accurate information on the number of patients on medication at the end of the
   reporting period because the health facility lacked information or followup. The audit
   team was unable to determine how the reported information had been derived
   because the district pharmacy that dispensed the antiretroviral medication did not
   record on their logs the patient’s prescribing health facility. The Partnership
   information analyst who installed the computer software at the district pharmacy said
   that the software could not generate data on a patient’s prescribing health facility.

•	 The health facility Ste-Thérèse de l’Enfant Jésus did not have its own supply of
   antiretroviral drugs. Instead, the facility obtained antiretroviral drugs from le Centre
   Intégré de Recherches Biocliniques d'Abidjan (CIRBA), which included Ste-Thérèse
   de l’Enfant Jésus activities in its reported statistics. EGPAF, which supported both
   CIRBA and Ste-Thérèse de l’Enfant Jésus, reported that 66 patients were on
   antiretroviral medication at Ste-Thérèse de l’Enfant Jésus, thus double-counting the
   patients who had already been reported by CIRBA. The audit team’s review of
   documentation found that roughly 30 patients were undergoing antiretroviral
   treatment at the end of September 2007 at Ste-Thérèse de l’Enfant Jésus. The
   center did not have an exact count of the patients under treatment in 2007.

•	 At various EGPAF-supported health facilities, the data management software,
   SIMPLE I, had not been installed properly and did not generate accurate information
   on the number of active patients at the end of a reporting period. For example, at
   Hôpital Général d’Adzopé, the software recorded patients as active as of March 27,
   2008, even though the last patient had received antiretroviral therapy in October
   2007. At l’Hôpital Général de Port Böuet, 28 of 327 patients were reported under a
   nonexistent drug regimen. The Partnership’s information analyst was aware of these
   shortcomings of the SIMPLE I software.

•	 Even though ACONDA reported 1,154 new patients during the period October–
   December 2007, the total number of patients decreased from 12,795 on October 1,
   2007, to 9,726 on December 31, 2007. During that period, ACONDA transferred a
   site to EGPAF, but the transfer explains a variance of only 600 patients.

•	 The audit team received various lists of antiretroviral service outlets from the
   implementers and PEPFAR members, but the number of antiretroviral service outlets
   was inconsistent, inaccurate, and at variance with PEPFAR’s definition. Some sites
   were reported as antiretroviral service outlets but did not have antiretroviral
   commodities available onsite. As of March 2007, according to the Partnership’s
   quantification report, 101 facilities had prescribing physicians but only 70 facilities



                                                                                           13
   dispensed antiretroviral medications.

•	 The number of antiretroviral therapy sites reported was inaccurate (see table 2,
   below).     Some large hospitals and health facilities were reporting multiple
   antiretroviral service outlets even though they had only one pharmacy or several
   pharmacies dispensing medication within one compound where no clinical
   monitoring was conducted. For example, le Centre Hospitalier Universitaire de
   Cocody in Abidjan reported four antiretroviral service outlets, even though the facility
   has only one small pharmacy that dispenses medication on a part-time basis.

Table 2. Number of Antiretroviral Service Outlets Reported

                As of September 30, 2007             As of December 31, 2007
                              Documentation                           Documentation
                Reported by Provided by              Reported by      Provided by
                PEPFAR        PEPFAR Côte            Implementers     PEPFAR Côte
                Côte d’Ivoire d’Ivoire Supports      to PEPFAR in     d’Ivoire Supports
 Implementer    to OGAC       the Following          Côte d’Ivoire    the Following
 EGPAF                     64               52                     71                   52
 ACONDA                    35               35                     40                   40
 TOTAL                     99               87                   111                    92

The problems described above were caused by the implementers’ and health facilities’
inability to measure and report accurately the number of active patients and the
implementers’ inconsistent application of OGAC’s definition of an active patient.

According to the Partnership’s analyst, the definition of active patients was not
consistent among ACONDA, EGPAF, and PEPFAR. EGPAF active patients were
defined as patients who received medications during the last reporting month. ACONDA
considered a patient active as of September 2007 if he or she had received treatment in
any 1 of the preceding 3 months. Furthermore, in Côte d’Ivoire, the program’s
implementers have incorrectly defined a “service outlet providing antiretroviral drugs”
(commonly referred to as a treatment site) as a unit of service where a doctor has been
trained to prescribe medication and provide clinical monitoring.

Another factor in the overreporting was the lack of staff at CDC and USAID/West Africa
to adequately monitor and validate the data provided by the implementers. Côte
d’Ivoire’s political instability, insecurity, and civil unrest exacerbated the difficulties in
conducting periodic testing, verifying the reported data, and recruiting more personnel.
Specifically, in November 2004, the U.S. Embassy evacuated all nonessential U.S.
personnel, including the new PEPFAR strategic unit adviser, who had been in Côte
d’Ivoire less than 1 month. The position remained vacant for approximately 3 years until
it was filled in April 2007.

As a consequence of the staff shortage, the health facilities lacked effective guidance on
how to gather and report information. Program managers did not know whether
PEPFAR was meeting its targets and could not ensure that fact-based funding and
programmatic decisions had been taken. At least five antiretroviral drugs worth $1.5
million will expire unless USAID/West Africa and the Partnership find a way to use the
drugs. In February 2008, PEPFAR started an in-depth evaluation of ACONDA’s
reporting on the number of active patients and other information. The evaluation has


                                                                                           14
been constructive but not sufficient to ensure that the results reported by the
implementers are of acceptable quality. We are therefore making the following
recommendations.

   Recommendation 5: We recommend that USAID/West Africa (a) appoint a
   monitoring officer to implement a system that regularly validates the quality of
   reported data on the number of active patients, (b) perform validation and
   verification of the implementers’ reported results, and (c) provide effective
   guidance to health facilities on why and how to collect accurate information.

   Recommendation 6:        We recommend that USAID/West Africa develop
   procedures to verify that implementers consistently apply Office of the U.S.
   Global AIDS Coordinator’s definitions of “antiretroviral therapy service outlets”
   and “active patients.”

   Recommendation 7: We recommend that USAID/West Africa develop a
   procedure for implementers to establish and maintain a comprehensive list of
   antiretroviral therapy service outlets that dispense antiretroviral drugs, including
   the names of the implementer and the donor providing financial support and the
   source of the data concerning the number of patients undergoing treatment.

   Recommendation 8: We recommend that USAID/West Africa develop a plan of
   action with the Partnership for Supply Chain Management to quantify the surplus
   of antiretroviral commodities and identify a mechanism to use the commodities
   before they expire.

Other Issue Noted During the Audit
One other matter—accounting for proceeds from the sale of PEPFAR commodities—
came to the auditors’ attention during the audit and is discussed in more detail below.

Cost Recovery System Needs to Be
Abolished or Improved

 Summary: In 1998, the Government of Côte d’Ivoire established a cost-recovery
 system requiring patients to pay some of the cost of their antiretroviral treatment. The
 system was designed, in part, to generate resources for community-based HIV/AIDS
 interventions. The money collected from patients has not been disbursed as required,
 and the health facilities providing antiretroviral treatment have not managed the funds
 consistently. Also, there have been no controls to prevent fraud, waste, and abuse
 associated with the collected funds. Repeated efforts by the PEPFAR in-country team
 and the Global Fund have failed to obtain information about the amount collected or
 disbursed because of a lack of political will by the Ivorian Government. This lack of
 transparency conflicts with U.S. Government rules and represents a missed
 opportunity to strengthen sustainable HIV/AIDS treatment systems. However, on
 August 20, 2008, after the audit fieldwork had been completed, the cost-recovery
 system was abolished.




                                                                                          15
According to PEPFAR’s general policy guidance for all bilateral programs, OGAC will
ensure program accountability within PEPFAR and take corrective action when required.
In line with the guidance, PEPFAR focuses on support for the national strategies of the
host countries but also stresses the importance of promoting accountability and good
governance in these countries to meet the obligation of accountability to Congress and
American taxpayers.

Public Law 108−25, the United States Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Act of 2003, signed into law on May 27, 2003, express congressional intent that
an urgent priority of U.S. assistance programs to fight HIV/AIDS should be the rapid
increase in distribution of antiretroviral therapy drugs so that individuals with HIV/AIDS
receiving the treatment they need.

Since 1998, Côte d’Ivoire had been operating under a government-mandated cost-
recovery system for antiretroviral drugs with no clear public policy regarding the use of
recovered funds. In 2007, the Ministry of Health issued a decision letter stating that
proceeds from the recovery would be held in a publicly managed account to pay for a
portion of service costs. In June 2006, as a result of pressure from the PEPFAR
implementers and donors, a Ministry of Health decree reduced the individual’s
contribution from $10 to $6 per 3-month treatment of antiretroviral medication. Children
(up to age 18) and women who are enrolled in programs to prevent mother-to-child
transmission receive their antiretroviral medication free of charge. In December 2004,
CDC made clear that this system did not comply with Federal regulations. In July 2007,
a Côte d’Ivoire ministerial decree charged the Public Health Pharmacy with stewardship
of the money collected by the health facilities from patient contributions and established
a formula for redistributing the collected funds among antiretroviral service outlets. The
funds were to be provided in the following percentages: to community counselors of
NGOs working on the prevention and treatment of people living with HIV/AIDS—50
percent; for the purchase of consumable supplies and small materials—25 percent; and
for strengthening operational capabilities of antiretroviral service outlets—25 percent.
However, because the Finance Ministry has not approved this decree, the Public Health
Pharmacy cannot distribute the funds. In addition, 3 of 15 health facilities had not
deposited the amounts collected. Only a small portion of the estimated proceeds
recovered has ever been accounted for, and patients have complained of being required
to pay too much at peripheral sites. Numerous individuals are assumed to be profiting
from this ambiguous situation. On the basis of an average number of patients under
treatment since September 2004, the audit estimates that contributions from patients
should have generated revenues for the Government of Côte d’Ivoire of roughly $1.5
million.

Despite repeated efforts, PEPFAR and the Global Fund failed to obtain information on
the amount of funds collected, their disposition, or their use. In addition, the audit team’s
site visits have shown that the funds collected from patients were not being used in a
consistent and transparent manner. There have been rumors of patients having to pay
up to $50 for antiretroviral drugs. Several examples of inconsistent procedures follow:

•	 In one health facility, the money collected since June 2007 ($12,000) was not
   deposited with the Public Health Pharmacy but was kept in pharmacy drawers in a
   room where patients came to collect their antiretroviral drugs. This health facility




                                                                                          16
   required patients to pay $6 for a 3-month supply but provided the patients with only a
   1-month supply of medicine.

•	 Another health facility was keeping a portion of the collected funds to pay part of its
   electricity bill and stipends to its employees, including the facility’s director, without a
   clear protocol on how the money should be distributed among the employees.

•	 According to management at the district pharmacy in Abengourou, $1,000 was
   stolen because the pharmacy had not deposited the money and had no controls to
   safeguard the funds. None of the pharmacies visited had a safe for storing the funds
   or a security system, and the funds were not properly safeguarded.

•	 Some institutions have not remitted the funds to the Public Health Pharmacy
   because they do not know how the funds will be accounted for or spent.

•	 Five of fifteen health facilities and the two district pharmacies visited could not
   account for the money collected from patients.

Donors made repeated efforts to persuade the Government of Côte d’Ivoire to either
remove the cost-recovery system or make it more accountable. In July 2007, senior
officials from PEPFAR and the Global Fund met with the Ivorian Minister of Health as
well as with the Prime Minister and the President of Côte d’Ivoire and raised the issue of
cost recovery. The donor officials stated that this issue needed to be resolved by either
abolishing the cost-recovery system or making it more transparent and accountable.
The donor and implementing entities stressed that the lack of transparency and
accountability conflicts with U.S. Government and Global Fund policies, which do not
allow countries that benefit from financial donations to establish a cost-recovery system
without a clear plan for the use of collected funds. Finally, on August 20, 2008, a
ministerial decree abolished the cost-recovery system, after the audit’s fieldwork had
been completed. Since that date, all antiretroviral medications have been provided free
of cost to all patients.

The main causes of the lack of accountability, transparency, and efficient use of funds
were the lack of political will or a clear mandate from the Government of Côte d’Ivoire
authorizing the Public Health Pharmacy to use patient contributions for their intended
purposes. Also, the Ministry of Health and the Public Health Pharmacy have not
provided controls or guidance to ensure that funds collected were safeguarded and
remitted in a timely manner. The situation represents a missed opportunity to strengthen
the sustainability of a national HIV/AIDS program and improve the availability and quality
of services. Since the cost-recovery system has been abolished, subsequent to the
audit, we are making the following recommendation to address the estimated $1.5
million already collected but not disbursed.

   Recommendation 9: We recommend that USAID/West Africa, in conjunction
   with the U.S. Ambassador to Côte d’Ivoire, petition for the Government of Côte
   d’Ivoire to make a determination regarding the use and disposition of the funds
   already collected and deposited in the Public Health Pharmacy account or
   maintained by the health facilities.




                                                                                            17
EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Africa (mission) provided detailed comments in response to our draft audit
report, which are included in their entirety (without attachments) in appendix II. The
mission’s comments were considered in finalizing this report.

USAID/West Africa concurred with all of the recommendations in the draft audit report
and took actions to address them. On the basis of actions taken by the mission,
recommendations 1, 2, 3, 5, 6, 7, and 8 are closed upon issuance of this report.
However, we consider that recommendations 4 and 9 have management decisions and
remain open. Final action to close those recommendations should be coordinated with
the Audit, Performance, and Compliance Division (M/CFO/APC) in the Office of the
Chief Financial Officer. Comments on the recommendations follow.

Recommendation 1, that USAID/West Africa require the Partnership for Supply Chain
Management, in conjunction with the Public Health Pharmacy, to develop an action plan
to implement an adequate inventory management system:

USAID/West Africa concurred with this recommendation and took action as
recommended. While analyzing the supporting documentation USAID/West Africa had
sent with its response, we found that USAID/West Africa through the Partnership
developed a detailed plan of action to improve the Public Health Pharmacy’s inventory
management system. The plan included actions such as installing an inventory
management system and drafting written procedures for cold storage, shipping, and
receiving of drugs commodities. On the basis of appropriate actions taken by
USAID/West Africa and the Partnership, we consider the recommendation closed upon
issuance of this report.

Recommendation 2, that USAID/West Africa require the Partnership to develop an
action plan with a timetable to train the Partnership’s local staff and the staffs of the
Public Health Pharmacy and the district pharmacies in managing inventory and
developing systems to track and report usage of commodities:

USAID/West Africa concurred and has taken measures to address this
recommendation. USAID/West Africa developed a training plan and timetable with
the Partnership to train its local staff and the staffs of the Public Health Pharmacy
and district pharmacies in managing inventory and developing systems to track and
report usage of commodities. The mission provided a copy of the training plan, which
contains a training schedule from March 2009 to March 2010. Examples of the
training include warehouse system management and supply chain management. On
the basis of the information provided and the action taken, we consider the
recommendation closed upon issuance of this report.

Recommendation 3, that USAID/West Africa require the Partnership to resume work
on the annex warehouse and set an operational timeframe and completion date for


                                                                                            18
the new warehouse:

The USAID/West Africa concurred with the recommendation and resumed work on
the annex warehouse. The mission installed an adjustable pallet-racking storage
system and provided pictures illustrating the installation. The annex warehouse is
expected to be completed by December 2009. On the basis of the action taken, we
consider the recommendation closed upon issuance of this report.

Recommendation 4, that USAID/West Africa, in conjunction with the Partnership and the
Public Health Pharmacy, develop an action plan to implement measures to improve
storage conditions for the President’s Emergency Plan for AIDS Relief (PEPFAR)
commodities:

USAID/West Africa concurred with the recommendation and indicated that the
Partnership has hired a consultant to assess the warehouse’s conditions, including
climate control, fire and safety, and energy use. The consultant’s report is expected by
the end of April 2009 and will form the basis for an action plan to improve storage
conditions at the Public Health Pharmacy. The mission provided a copy of a concurrence
letter for short-term technical assistance with the consultant. On the basis of the
information provided, we consider that management decision has been reached for this
recommendation.

Recommendation 5, that USAID/West Africa (a) appoint a monitoring officer to
implement a system that regularly validates the quality of reported data on the
number of active patients; (b) perform validation and verification of the implementers’
reported results; and (c) provide effective guidance to health facilities on why and
how to collect accurate information:

USAID/West Africa concurred with the recommendation and hired a regional
monitoring and evaluation adviser, who is working with the PEPFAR Côte d’Ivoire
Strategic Information Branch to develop standard operating procedures and conduct
data quality verification. In addition, USAID/West Africa is recruiting, via IAP
Worldwide Services, Inc., a commodities logistics technical adviser to regularly
validate the quality of reported data and work with the implementing partners to
improve their capacity to collect accurate information. USAID/West Africa provided a
copy of a contract between the commodities logistics technical adviser and IAP
Worldwide Services, Inc. USAID/West Africa also provided a copy of the contract
with the monitoring and evaluation adviser. The commodities logistics technical
adviser will start working in May 2009. On the basis of the information provided and
the action taken, we consider the recommendation closed upon issuance of this
report.

Recommendation 6, that USAID/West Africa develop procedures to verify that
implementers consistently apply Office of the U.S. Global AIDS Coordinator’s
definitions of “antiretroviral therapy service outlets” and “active patients”:

USAID/West Africa concurred with the recommendation and indicated that the
PEPFAR in-country team has developed standard operating procedures for site
visits. The procedures instruct staff to perform rapid data quality verification during
site visits and contain a separate data quality checklist to document the routine
cross-checking of partners’ information. We acknowledge that the procedures and


                                                                                          19
the checklist are appropriate and useful; however, we noted that they do not include
steps for verifying the indicator definition used. We encourage the mission and the
PEPFAR in-country team to incorporate this information in its next revision of the
procedures and checklist. On the basis of appropriate actions taken by USAID/West
Africa in conjunction with the PEPFAR in-country team, we consider the
recommendation closed upon issuance of this report.

Recommendation 7, that USAID/West Africa develop a procedure for implementers
to establish and maintain a comprehensive list of antiretroviral therapy (ART) service
outlets that dispense antiretroviral drugs, including the names of the implementer
and the donor providing financial support and the source of the data concerning the
number of patients undergoing treatment:

USAID/West Africa concurred with the recommendation and indicated that the
PEPFAR in-country team has developed a comprehensive table that includes the
name of the ART service outlets, the name of the implementer, and the number of
patients undergoing treatment. By the end of April 2009, the PEPFAR in-country
team plans to update the table, incorporate the name of the donor providing financial
support and the source of the data concerning the number of patients undergoing
treatment, and provide implementers with a copy of the updated table. On the basis
of the information provided and the action taken, we consider the recommendation
closed upon issuance of this report.

Recommendation 8, that USAID/West Africa develop a plan of action with the
Partnership to quantify the surplus of antiretroviral commodities and identify a
mechanism to use the commodities before they expire:

USAID/West Africa concurred with the recommendation and indicated that the PEPFAR
in-country team, the Partnership, and the Government of Cote d’Ivoire have quantified
the surplus of antiretroviral commodities to be $2.4 million—$1,516,606 ordered in
surplus and $904,584 excess stock on hand. The Partnership has taken measures to
utilize, cancel, or divert to other countries most of the surplus commodities. However, a
remaining surplus of $331,098 could not be utilized, canceled, or diverted and will expire
without being used. USAID/West Africa noted further that, by the end of April 2009, the
Partnership will submit to the mission and the PEPFAR in-country team a detailed plan
for how to destroy remaining commodities once they expire. On the basis of the
information provided and the actions taken, we consider the recommendation closed
upon issuance of this report.

Recommendation 9, that USAID/West Africa, in conjunction with the Government of
Côte d’Ivoire, make a determination regarding the use and disposition of the funds
already collected and deposited in the Public Health Pharmacy account or maintained by
the health facilities:

USAID/West Africa concurred with the recommendation and noted that the U.S.
Ambassador to Côte d’Ivoire, the PEPFAR coordinator, and the head of the Global
Fund’s country coordinating mechanism are planning to send a letter to the Minister of
Finance and meet with that minister and the Minister of Health to petition the approval
and implementation of the Government of Côte d’Ivoire’s July 2007 ministerial decree,
which established a formula for redistributing the funds collected from patients receiving
PEPFAR-supported antiretroviral medicines. The collected funds are to be redistributed


                                                                                         20
among antiretroviral service outlets. This planned action is expected to be taken by the
end of May 2009. On the basis of the information provided and the measures taken, we
consider that management decision has been reached.

USAID/West Africa also provided comments related to specific issues in the draft audit
report. USAID/West Africa stated that while it agrees that actions should be taken on the
recommendations made by the Office of the Inspector General, it would like to clarify
what it believes to be inaccurate information in the audit report. The mission also asked
that some language be added to the audit report.

USAID/West Africa states that it would like to clarify that the USAID/West Africa Mission
Director is based in Accra and is therefore not part of the PEPFAR in-country team. And
while the mission served as a budget pass-through for funds allocated to other PEPFAR
implementing mechanisms, the mission did not serve as a budget pass-through for funds
allocated to the Partnership for the procurement and distribution of commodities in Côte
d’Ivoire. According to the mission, it never received or allocated funding for the
Partnership. After further communication with the mission, we clarified in the report that
although the mission served as a budget pass-through for funds allocated to PEPFAR
implementing mechanisms in Côte d’Ivoire; it did not receive funding for commodity
acquisition for Côte d’Ivoire. In our communication we also agreed to remove references
to the USAID/West Africa Mission Director’s being part of the PEPFAR in-country team.

In its comments on the draft audit report, the mission also states: “The mission and the
U.S. Ambassador to Côte d’Ivoire would strongly recommend the Office of the Inspector
General reword Recommendation No. 9 to read “USAID/West Africa, in conjunction with
the U.S. Ambassador to Côte d’Ivoire, petition for the Government of Côte d’Ivoire to
make a determination regarding the use and disposition of the funds already collected
and deposited in the Public Health Pharmacy account or maintained by the health
facilities.” We discussed the rewording with mission officials, who provided a copy of
communication with the Ambassador’s office on the matter. On the basis of our
discussion and the information provided by the mission, RIG/Dakar agreed and changed
the recommendation accordingly.

In addition, USAID/West Africa requested that we add language to the background
section of the report, replace the wording “regional pharmacies” with “district
pharmacies,” and clarify that the Partnership for Supply Chain Management did not build
the new annex warehouse. As requested, RIG/Dakar added the supplemental language
to the background section of the report, replaced references to “regional pharmacies”
with “district pharmacies,” and rephrased the wording that the Partnership “did not
complete the new warehouse” as “did not complete the infrastructure upgrade.”

Finally, USAID/West Africa, in its response to the draft audit report and during our
discussion, raised concerns regarding the delineation of responsibilities between the
mission and USAID/Washington regarding the USAID/Washington-managed contract to
which the mission allocated field support. The mission conveyed to RIG/Dakar that its
involvement in the procurement and distribution of the PEPFAR commodities in Côte
d’Ivoire was limited to providing technical support. The mission requested that
RIG/Dakar consider the applicability in this report of a paragraph taken from the audit
report of USAID/Zambia’s Procurement and Distribution of Commodities for the
President’s Emergency Plan for AIDS Relief, published May 30, 2008. The paragraph in
effect highlights the need for a USAID policy clearly delineating the scope and the


                                                                                       21
limitations of the activity manager’s role when involved in a USAID/Washington­
managed contract to which the mission allocates field support. RIG/Dakar agreed with
the mission’s concerns and highlights the issue here as well.




                                                                                 22
                                                                                    Appendix I



SCOPE AND METHODOLOGY 

Scope
The Office of the Regional Inspector General/Dakar (RIG/Dakar) conducted this audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions. We believe that the
evidence obtained provides this reasonable basis. This audit is part of a worldwide audit
of the President’s Emergency Plan for AIDS Relief (PEPFAR). The audit was designed
to determine whether USAID/West Africa has procured, deployed, and warehoused
PEPFAR commodities in Côte d’Ivoire to help ensure that intended results were
achieved. It also sought to determine the impact of PEPFAR activities.

In planning and performing the audit, RIG/Dakar reviewed and assessed the
effectiveness of management controls related to PEPFAR. The management controls
assessed included the country operational plan and monitoring activities, inventory
management controls, and cost-recovery controls.

During the audit, we interviewed USAID/West Africa’s officials in Accra, Ghana,
members of the PEPFAR in-country team in Côte d’Ivoire, the Global Fund’s officials,
and representatives of organizations implementing the program in Côte d’Ivoire. We
visited 23 of 92 health facilities10 and 2 district warehouses receiving assistance in 4 of
the 18 administrative regions of Côte d’Ivoire covered by PEPFAR as of December
2007.

We also visited 11 clinics offering services for prevention of mother-to-child transmission
(PMTCT) and voluntary counseling and testing (VCT). The audit team judgmentally
selected sites to visit, giving preference to communities that had activities falling under
all three program components—treatment, PMTCT, and VCT.

We made our selections to constitute a representative mix of urban and rural facilities of
both implementers conducting activities. The number of locations visited and the
number of health facilities receiving assistance are detailed in table 3 below.




10
    There were inconsistencies among the different reports received regarding the number of
antiretroviral treatment sites in Côte d’Ivoire. We reconciled those differences and found that
there were 92 sites as of December 2007. Of the 92 sites, we visited 23 sites and 2 district
pharmacies. Of the 23 health facilities, 15 were supported by EGPAF and 8 by Alliance Nationale
Contre le SIDA en Côte d’Ivoire (ACONDA). In addition to the 2 district pharmacies that stored
antiretroviral drugs (ARVs), the audit found ARVs at 15 of the 23 health facilities—8 for ACONDA
and 7 for Elizabeth Glaser Pediatric AIDS Foundation (EGPAF). Although ARVs were stored and
dispensed at the district pharmacies, we did not consider the pharmacies to be treatment centers
like the health facilities, because they did not have doctors or patient files, and they did not
conduct testing.


                                                                                             23
                                                                                Appendix I


Table 3. Analysis of Implementer Sites Visited

 Implementer            Total Antiretroviral   Sites Visited           Percentage
                        Therapy Sites          by AuditTeam            Visited
                        Receiving
                        Assistance
 EGPAF                  52                     15                      29%
 ACONDA                 40                     8                       20%
 Total                  92                     23                      25%

We also visited the regional distribution center11 of the Partnership for Supply Chain
Management (the Partnership) in Accra, Ghana. During the period covered by the audit,
October 2006 to December 2007, USAID/West Africa obligated $3.7 million and spent
$1.6 million in support of PEPFAR in Côte d’Ivoire.

Fieldwork was performed in Accra, Ghana, from March 5 to 7, 2008. While in Ghana we
visited the Partnership’s regional warehouse, and we met with officials from USAID/West
Africa. Fieldwork continued in Côte d’Ivoire from March 10 to April 3, 2008.

Methodology
In performing the audit work, RIG/Dakar interviewed officials from USAID/West Africa,
the Centers for Disease Control and Prevention (CDC), the Partnership, and the
PEPFAR in-country coordinator in Côte d’Ivoire. We also reviewed progress reports to
confirm progress reported toward achieving planned results. We visited health facilities
and warehouses. At the health facilities, we interviewed pharmacists, laboratory
technicians, PMTCT and VCT service providers, data managers, and administrators.
We collected and analyzed data on patients receiving antiretroviral therapy provided by
the health facility pharmacies, counted inventory, and reviewed reconciliations. We also
reviewed the VCT and PMTCT registers and laboratory registers. We visited officials
from the two implementers—Alliance Nationale Contre le SIDA en Côte d’Ivoire and the
Elizabeth Glaser Pediatric AIDS Foundation —and examined agreements and progress
reports. We also interviewed the Global Fund representative and representatives of
other nongovernmental organizations implementing care and treatment activities.

To validate performance results, we collected and analyzed data on the number of
individuals on antiretroviral therapy and examined pharmacy prescription records and
dispensation registers. The audit team also visited the distribution centers in Accra,
Ghana, and in Abidjan, Côte d’Ivoire, where commodities were stored. We tested data
for PMTCT and VCT at 11 clinics. We judgmentally selected these facilities to maximize
our geographic coverage of the number of individuals on antiretroviral therapy with the
two implementers of the program.

To ascertain the impact of the results achieved, we relied on the testimony of the
Partnership and USAID/West Africa officials. We also reviewed PEPFAR reports and
tested reported results for accuracy.



11
  The Partnership stores commodities procured for PEPFAR at the regional warehouse in Ghana
and distributes them to several countries, including Côte d’Ivoire.


                                                                                        24
                                                                                Appendix I


Additionally, for selected months, we reviewed the number of individuals reported as
being tested for HIV/AIDS and the number reported as testing positive. This review
compared the monthly data reports submitted by the implementers with laboratory
registers and the VCT and PMTCT registers with respect to the number of individuals
tested and the number of individuals testing positive for HIV.

In addition, we completed the following steps:

•	 Completed physical inventories at 15 of the 23 health facilities, 2 district warehouses,
   and the Public Health Pharmacy. We counted and tested 10 antiretroviral products
   and 2 test kits, comparing actual stock on hand with stock cards or inventory listings.
   We assessed storage conditions.

•	 Counted and compared reported information to supporting documentation, such as
   antiretroviral dispensation registers; pharmacy prescription records; money
   contributed by the patients for antiretroviral drugs; laboratory registers; VCT and
   PTMCT registers; and computerized information system reports for patients on
   antiretroviral therapy.

•	 Compared commodities ordered and received for selected months to determine
   whether the quantities ordered had been received.

To judge the significance of variances found during the audit between reported
accomplishments and supporting documentation, we considered a variance of 10
percent or more to be significant and reportable.




                                                                                        25
                                                                                                         Appendix II



   MANAGEMENT COMMENTS 



   March 27, 2009


   MEMORANDUM

   To:	               RIG/Dakar Regional Inspector General, Dennis Bryant

   From:	             USAID/West Africa Director, Henderson Patrick

   Subject: 	         Management comments on Audit of USAID/West Africa’s
                      Procurement and Distribution of Commodities in Côte d’Ivoire for
                      the President’s Emergency Plan for AIDS Relief (Report No. 7-
                      624-09-00X-P)

   USAID/West Africa appreciates the Inspector General conducting the audit on
   President’s Emergency Plan for AIDS Relief (PEPFAR) procurement and distribution of
   commodities in Côte d’Ivoire. The subject Audit Report and recommendations will
   improve the quality of the program and will help ensure that the people of Cote d’Ivoire
   receive the services and products needed to curb the expansion and impact of
   HIV/AIDS.

   The Mission, in collaboration with other members of the United States Government
   (USG) PEPFAR country team12, has reviewed and is in agreement with all nine
   recommendations. The following represents the Mission Management’s comments and
   decisions on actions already taken, and actions planned, in order to properly address the
   recommendations contained in the report.           Based on these actions, Mission
   Management requests closure on Recommendations 1 through 8. For Recommendation
   9, action is expected to be completed by the end of May 2009.

   Recommendation No. 1: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management, in conjunction with the Public Health
   Pharmacy, to develop an action plan to implement an adequate inventory
   management system.

     Actions taken:
1. 	 The Partnership for Supply Chain Management (the Partnership) developed a detailed
     plan (Attachment 1.1) to improve the Public Health Pharmacy’s inventory management
     system. The main objective of this plan is to install, test and activate the warehouse
     Management and Control System (MACS), which incorporates hand-held and radio
   12
     In Cote d’Ivoire, the USG county team includes representatives from the Department of State, the Centers for Disease
   Control and Prevention, and USAID.



                                                                                                                     26

     frequency technology to facilitate inventory management enabling more accurate supply
     plans and forecasts. Since the audit, the Partnership has developed the MACS and
     successfully interfaced it with the Public Health Pharmacy’s SAGE L1000 financial
     management software.
2. 	 Prior to developing the MACS software for Cote d’Ivoire, the Partnership worked with the
     Public Health Pharmacy to establish a paper-based logistics management information
     system called SIGL (Systèmes d’Information de Gestion Logistique), to strengthen the
     Government of Cote d’Ivoire’s existing inventory management system (Attachment 1.2).
     SIGL serves as the repository for current information on needs estimates, product
     registration, funds availability, production capacity, procurement status, shipment and
     receipt status, regional distribution center inventory management, and product returns.
     Public Health Pharmacy staff members were trained in the implementation of SIGL and
     enabled the deployment of the paper based data collection and reporting system to 66%
     of the nation’s antiretroviral (ART) sites.

   The above constitutes measures taken to ensure Recommendation 1 is addressed.
   Therefore, Mission Management recommends that Recommendation 1 be closed.

   Recommendation No. 2: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management to develop an action plan with a
   timetable to train a) the Partnership for Supply Chain Management’s local staff;
   and b) the Public Health Pharmacy and the regional pharmacies’ staffs in
   managing inventory and developing systems to track and report usage of
   commodities.

    Actions taken:
1. 	The Partnership developed a plan with a timetable to train its local staff, the Public
    Health Pharmacy and district pharmacies’ staffs in managing inventory and developing
    systems to track and report usage of commodities (Attachment 2.1). The following
    trainings in inventory management and developing systems to track and report usage of
    commodities have been implemented:
•	          In July 2007, two of the Partnership local staff and four key Public Health
    Pharmacy managers completed warehouse management training in South Africa
    (Attachment 2.2). This training resulted in the development of the SIGL mentioned
    above.
•	          In September 2007, a total of 28 participants were trained as trainers in the
    implementation of the logistics management information system—SIGL. Training
    participants included mostly district pharmacists, but also staff from the National Care
    and Support Program (PNPEC), the Department of Information, Planning and Evaluation
    (DIPE), and local staff from the Partnership (Attachment 2.3). Of the 28 trainers trained,
    22 are currently serving as trainers of Public Health Pharmacy managers and
    pharmacists.
•	          Since November 2008, the Partnership has facilitated the training of 446 public
    health pharmacists and pharmacy managers in the implementation of the SIGL, using
    the 22 trainers mentioned above (Attachment 2.4). This training is ongoing as the
    Partnership and the Public Health Pharmacy have the shared goal of training and
    retraining all Public Health Pharmacy staff involved in the management of ART drugs
    nationwide.

   The above constitutes measures taken to ensure Recommendation 2 is addressed.
   Therefore, Mission Management recommends that Recommendation 2 be closed.


                                                                                           27
   Recommendation No. 3: We recommend that USAID/West Africa require the
   Partnership for Supply Chain Management, in conjunction with the Public Health
   Pharmacy, to resume work on the annex warehouse and set an operational time
   frame and completion date for the new warehouse.

     Actions taken:
1. 	 The annex warehouse is approximately 85 percent completed (Attachment 3.3, Photo).
     The adjustable pallet and gravity flow racking storage systems are installed and
     operational.
2. 	The ABC Analysis, which assessed and established proper categorizing of stock
     according to cost and quantity, was completed in March 2009 (Attachment 3.2). The
     ABC Analysis report is expected to be available by the end of April 2009. This report will
     provide a roadmap for completing the new warehouse and will include an action plan.
     The report will serve as the basis for a product migration exercise between the Public
     Health Pharmacy’s four main warehouses. At the end of this exercise, Public Health
     Pharmacy management will be empowered to undertake subsequent ABC analyses
     using data derived from the MACS warehouse management system.

     Actions planned:
1. 	 The new warehouse is expected to be completed by the end of December 2009. The
     timeline is contingent upon procurement moving forward smoothly without unanticipated
     delays, especially as it relates to equipping the new warehouse with an air conditioning
     system, a security system, and a complete racking system.

   The above constitutes measures taken and planned to ensure Recommendation 3 is
   addressed. Therefore, Mission Management recommends that Recommendation 3 be
   closed.

   Recommendation No. 4: We recommend that USAID/West Africa, in conjunction
   with the Partnership for Supply Chain Management and the Public Health
   Pharmacy, develop an action plan to implement measures to improve storage
   conditions for the President’s Emergency Plan for AIDS Relief commodities.

    Actions taken:
1. 	A consultant hired by the Partnership performed a detailed analysis of warehouse
    conditions, including climate control, fire and safety, and energy use. The report from
    this analysis is anticipated by the end of April 2009 and will include an action plan.

   The above constitutes measures taken to ensure Recommendation 4 is addressed.
   Therefore, Mission Management recommends that Recommendation 4 be closed.

   Recommendation No. 5: We recommend that USAID/West Africa (a) appoint a
   monitoring officer to implement a system that regularly validates the quality of
   reported data on the number of active patients, (b) perform validation and
   verification of the implementers’ reported results, and (c) provide effective
   guidance to health facilities on why and how to collect accurate information.

    Actions taken:
1. 	USAID/West Africa is contracting the services of an Abidjan-based Commodities
    Logistics Technical Advisor (Attachment 5.1), who will work together with a


                                                                                            28
    Biostatistician currently being recruited by the CDC. These staff will work with the
    PEPFAR CI Strategic Information branch to regularly validate the quality of reported data
    on the number of active patients, and work with implementing partners (EGPAF and
    ACONDA) to improve their capacity to collect accurate information. The Commodities
    Logistics Technical Advisor is expected to begin her contract by the end of May 2009.
2. 	USAID/West Africa also hired a regional Monitoring and Evaluation (M&E) Advisor in
    July 2008 (Attachment 5.2). Based in Accra, the M&E Advisor has been working in
    collaboration with PEPFAR Cote d’Ivoire’s Strategic Information branch to develop sets
    of standard operating procedures and tools aimed at improving performance
    management, as well as to conduct data quality audit.

     Actions planned:
1. 	 The Mission, in collaboration with other members of the USG’s PEPFAR country team,
     is planning to conduct an assessment of USAID human resources in Cote d’Ivoire. Hiring
     an additional officer to focus on monitoring data related to the number of ART service
     outlets and of active patients will be considered during this exercise. It is expected that
     results from this human resources assessment will be completed by August 2009 and
     that the results will inform the PEPFAR planning for COP 2010.

   The above constitutes measures taken and planned to ensure Recommendation 5 is
   addressed. Therefore, Mission Management recommends that Recommendation 5 be
   closed.

   Recommendation No. 6: We recommend that USAID/West Africa develop
   procedures to verify that implementers consistently apply Office of the U.S.
   Global AIDS Coordinator’s definitions of antiretroviral therapy service outlets and
   active patients.

     Actions taken:
1. 	 The USG PEPFAR country team developed standard operating procedures for site visits
     (Attachment 6.1). The procedures instruct USG staff to perform rapid data quality
     verification during every site visits, and contains a data quality checklist designed to
     document the routine cross-checking of partners’ information—including indicator
     definitions used—reported to PEPFAR (Attachment 6.2). The procedures and its data
     quality checklist are expected to be formally adopted by the PEPFAR country team by
     the end of April 2009.
2. 	 In March 2009, the USG PEPFAR country team sought further guidance from the Office
     of the U.S. Global AIDS Coordinator (OGAC) on how to count ART service outlets13
     when a pharmacy providing antiretroviral drugs receives HIV-positive patients from
     multiple health clinics and hospitals, where drugs are prescribed and clinical monitoring
     is performed14. OGAC advised the country team to continue using its current operational
     definition—which counts clinics and hospitals as ART service outlets and does not count


   13
       As stated in the audit report, OGAC defines ART service outlets as the lowest level of unit, such as a hospital, clinic, or
   mobile unit, where therapeutic activities including the provision of antiretroviral drugs and clinical monitoring are provided
   to those with the HIV infection.
   14
       In Cote d’Ivoire, the USG PEPFAR country team has operationalized the definition as a site where antiretroviral drugs
   are prescribed as part of patients’ clinical monitoring. This therapy may occur at reference hospitals, district hospitals,
   health centers, or health posts. Upon receiving medical services, clients may proceed to pharmacies to obtain drugs as
   necessary; however, a “service outlet” is not the same thing as a “pharmacy dispensing ARV drugs.” Depending on the
   size of the service outlet, a pharmacy may be co-located onsite, or patients may access drugs from a nearby hospital or
   district pharmacy.



                                                                                                                              29
       pharmacies—based on the this indicator definition and Cote d’Ivoire’s specific situation
       (Attachment 6.3).

       Actions planned:
1. 	       The USG PEPFAR country team plans to provide written directives requiring that
       partners periodically test their own and their sub-recipients’ data to help ensure that
       good quality data is reported to PEPFAR. These directives are expected to be
       completed and sent to partners by the end of May 2009.

       The above constitutes measures taken and planned to ensure Recommendation 6 is
       addressed. Therefore, Mission Management recommends that Recommendation 6 be
       closed.

       Recommendation No .7: We recommend that USAID/West Africa develop a
       procedure for implementers to establish and maintain a comprehensive list of
       antiretroviral therapy service outlets that dispense antiretroviral drugs, including
       the name of the implementer, the name of the donor providing financial support,
       and the source of the data concerning the number of patients undergoing
       treatment.

       Actions taken:
1. 	       The USG PEPFAR country team developed a comprehensive table that includes the
       name of the ART service outlets, the name of the implementer, and the number of
       patients undergoing treatment. This list is updated quarterly by implementing partners
       ACONDA and EGPAF.

       Actions planned:
2. 	      The USG PEPFAR country team will revise the monitoring table to incorporate the
       name of the donor providing financial support and the source of the data concerning the
       number of patients undergoing treatment. This revised version will be sent to
       implementing partners (EGPAF and ACONDA) with directives on how to modify their
       reporting accordingly, by the end of April 2009.

       The above constitutes measures taken and planned to ensure Recommendation 7 is
       addressed. Therefore, Mission Management recommends that Recommendation 7 be
       closed.

       Recommendation No. 8: We recommend that USAID/West Africa develop a plan of
       action with the Partnership for Supply Chain Management to quantify the surplus
       of antiretroviral commodities and identify a mechanism to use the commodities
       before they expire.

     Actions taken:
1. 	     The Partnership worked with the in-country PEPFAR staff and the Government of
     Cote d’Ivoire to perform a detailed analysis of stock on hand, including surplus. Of the
     $1,516,606 surplus of antiretroviral commodities ordered (in excess) for delivery to Cote
     d’Ivoire in fiscal year 2007, stock valued at $845,413 was either canceled or diverted to
     other countries, leaving a balance of $671,194 (Attachment 8.1).
2. 	     Of the $904,854 in ARVS purchased (in excess) and actually delivered to the Public
     Health Pharmacy by the Partnership, a total of $36,036 was delivered to Harvard
     University in Nigeria (Attachment 8.2). Additional surplus of products valued at


                                                                                            30
       $331,098 could not be transferred owing to expiration dates and stock levels at potential
       transfer sites.

     Actions planned:
1. 	     By the end of April 2009, The Partnership will submit to the Mission and the USG
     country team a detailed plan for how remaining commodities will be destroyed once they
     expire in May and June 2009.
2. 	     For the future, the schedule of six-month inventory checks and recalibration will
     serve as a vehicle to prevent overstocks and, in the cases where they occur, to identify
     the problem with sufficient lead time to liquidate or transfer any excess.

       The above constitutes measures taken and planned to ensure Recommendation 8 is
       addressed. Therefore, Mission Management recommends that Recommendation 8 be
       closed.

       Recommendation No. 9: We recommend that USAID/West Africa, in conjunction
       with the Government of Côte d’Ivoire, make a determination regarding the use and
       disposition of the funds already collected and deposited in the Public Health
       Pharmacy account or maintained by the health facilities.

     Actions planned:
1. 	     The U.S. Ambassador, PEPFAR Coordinator and head of the Global Fund’s Country
     Coordinating Mechanism plan to send a letter to the minister of finance to urge him to
     approve and implement the Government of Cote d’Ivoire’s July 2007 ministerial decree
     which established a formula for redistributing the collected funds among antiretroviral
     service outlets. This action is expected to be completed by the end of May 2009.
2. 	     The U.S. Ambassador, PEPFAR Coordinator and head of the Global Fund’s Country
     Coordinating Mechanism plan to meet concurrently with the ministers of health and of
     finance to petition for the approval and implement the Government of Cote d’Ivoire’s July
     2007 ministerial decree which established a formula for redistributing the collected funds
     among antiretroviral service outlets. This action is expected to be completed by the end
     of May 2009.

       The above constitutes measures planned to ensure Recommendation 9 is addressed.
       Therefore, Mission Management recommends that Recommendation 9 remain open
       until planned actions are implemented.

       Additional comments:
       While it agrees that actions should be taken on the recommendations made by the
       Office of the Inspector General, the Mission would like to clarify inaccurate information
       found in the audit report. The Mission would also like to comment on the language in
       Recommendation 9.

       Page 3, Paragraph 2: The Mission would like to add a critical piece of background
       information regarding the Agency’s contractual agreement with the Partnership. Since
       the audit was part of a global audit of USAID’s procurement and distribution of
       commodities for multi-country for PEPFAR, the Mission suggests the following
       paragraph–extracted from Inspector General’s audit of USAID/Zambia’s procurement
       and distribution of commodities for PEPFAR (Report No. 9-611-08-007-P) – be included
       in the Background section of the audit report:



                                                                                             31
In September 2005, USAID contracted with the Partnership for Supply Chain
Management (the Partnership) to procure commodities for the care and treatment of
HIV/AIDS and related infections, and to provide related technical assistance. This
USAID/Washington-managed contract has a ceiling price of $7 billion.
USAID/Washington’s contracting officer issues task orders against the contract as needs
become defined. The first task orders called for up to $652 million over 3 years to
procure and distribute antiretroviral drugs and other commodities and to provide
technical assistance for supply chains. Missions access the task orders by allocating
mission funding to the contract. The task orders have estimated completion dates of
September 29, 2008.15

Furthermore, in light of the above paragraph, the Mission would like to appeal to the
Inspector General to consider the applicability of the paragraph below to USAID/West
Africa’s procurement and distribution of commodities for PEPFAR in Cote d’Ivoire:

We are not making a recommendation regarding the need for a USAID policy clearly
delineating the scope and the limitations of the activity manager’s role when involved in
a USAID/Washington-managed contract to which the mission allocates field support.
This issue is beyond the scope of this audit. The Office of Inspector General will explore
this issue in the report summarizing the series of similar audits being conducted during
fiscal year 2008, should the issue be noted as a concern in the other audits.16

Page 4, First bullet: The Mission would like to clarify that the USAID/West Africa Mission
Director is based in Accra and is therefore not part of the PEPFAR in-country team.

Page 5, First bullet: While it has served as a “budget pass-through” for funds allocated
to other PEPFAR implementing mechanisms, the Mission did not serve as a “budget
pass-through” for funds allocated to the Partnership for the procurement and distribution
of commodities in Cote d’Ivoire. The Mission never received or allocated funding for the
Partnership.

Page 12, Recommendation No. 2: The Mission would like to clarify that the Partnership
trains the “district” pharmacies. “Regional” pharmacies, as stated in report, do not exist
in Cote d’Ivoire.

Page 12, Recommendation No. 3: The Mission would like to clarify that the Partnership
never made plans to build a new regional warehouse in Cote d'Ivoire as stated in the
report (page 9, second paragraph). The Partnership’s contract with USAID expressly
forbids any construction. The new warehouse in question has been built by the Public
Health Pharmacy using its own resources. The Partnership’s plans were limited to
upgrading storage equipment, conditions and information technology and stock
management systems in the new warehouse.

Page 18, Recommendation No. 9: The Mission and the U.S. Ambassador to Cote
d’Ivoire would strongly recommend the Office of the Inspector General reword
Recommendation No. 9. In our view, the USG PEPFAR country team (including the

15
   Office of Inspector General, Audit of USAID/Zambia’s Procurement and Distribution of Commodities for the President’s

Emergency Plan for AIDS Relief (Report No. 9-611-08-007-P), May 30, 2008, page 3.

16
   Office of Inspector General, Audit of USAID/Zambia’s Procurement and Distribution of Commodities for the President’s

Emergency Plan for AIDS Relief (Report No. 9-611-08-007-P), May 30, 2008, page 13.




                                                                                                                    32
Embassy, USAID/West Africa, and CDC/Cote d’Ivoire) should not, even in conjunction
with the Government of Cote d’Ivoire, make a retroactive determination regarding the
use and disposition of funds already collected and deposited in the Public Health
Pharmacy. The USG PEPFAR country team agrees that it should lobby the Government
of Cote d’Ivoire on the use of the funds. However, the USG has no means of ensuring
that any determination would be executed. The audit report should avoid committing the
USG to do something that it has no means of enforcing. Hence, the USG PEPFAR
country team strongly recommends Recommendation No. 9 be reworded as follows:

Recommendation No. 9: We recommend that USAID/West Africa, in conjunction with the
U.S. Ambassador to Cote d’Ivoire, petition for the Government of Côte d’Ivoire to make a
determination regarding the use and disposition of the funds already collected and
deposited in the Public Health Pharmacy account or maintained by the health facilities.




                                                                                     33
                                                                     Appendix III



REPORTED AND
DOCUMENTED RESULTS
Table 4.    Number of Individuals Receiving Antiretroviral Treatment as of
September 30, 2007, at Alliance Nationale Contre le SIDA en Côte d’Ivoire (See
table on page 13)

                                                                Percentage
                                                                Over
                                   Reported Documented          (Under)
ACONDA Sites                       Results  Results    Variance Reported
Centre de Prise en Charge de
Recherche et de Formation             3,044        2,114      930        44.0%
Hôpital Général Abobo Sud               450          302      148        49.0%
Koun-Fao                                  0            0        0         0.0%
Tankessé                                  0            0        0         0.0%
Hôpital Méthodiste de Dabou             946          459      487       106.1%
Centre Nazaréen                         182          166       16         9.6%
Hôpital Général Anyama                  222          127       95        74.8%
Centre Nationale de
Transmission Sanguine                   653          402      251        62.4%
Total                                 5,497        3,570    1,927        54.0%


Table 5.    Number of Individuals Receiving Antiretroviral Treatment as of
September 30, 2007, at the Elizabeth Glaser Pediatric AIDS Foundation (See table
on page 13)

                                                                  Percentage
                                                                  Over
                                   Reported Documented            (Under)
EGPAF Sites                        Results  Results     Variance Reported
Hôpital Général Koumassi                165         179     (-14)     (-7.8%)
Centre Hospitalier Universitaire
                                      4,757        3,238    1,519        46.9%
de Treichville
Centre Intégré de Recherches
                                      2,150        1,441      709        49.2%
Biocliniques d'Abidjan
Ste Thérèse de l’Enfant Jésus           66            0         66      100.0%
Port Böuet                             157          273     (-116)     (-42.5%)
District d’Abengourou                  987          528        459        86.9%
Hôpital General Adzopé                 151          111         40        36.0%
District d’Agnibilekrou                273          252         21         8.3%
Centre Hospitalier Universitaire
                                      1,273         610       663       108.7%
de Cocody
Total                                 9,979        6,632    3,347          50%




                                                                              34
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig



                                              35
